   March 5, 2003




Logistics


Accountability and Control of
Materiel at the Naval Air Depot,
Jacksonville
(D-2003-057)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
 (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
 (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

MRP II               Manufacturing Resource Planning II System
NADEP-JAX            Naval Air Depot, Jacksonville
NAVAIR               Naval Air Systems Command
NAVAIRINST           Naval Air Instruction
POU                  Point of Use
          Office of the Inspector General of the Department of Defense
Report No. D-2003-057                                                        March 5, 2003
   (Project No. D2002LH-0203)

                 Accountability and Control of Materiel at the
                       Naval Air Depot, Jacksonville

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
materiel management of aviation spare parts should read this report. The report discusses
compliance with policies and procedures used to account for and control materiel at
Naval Air Depot, Jacksonville.

Background. This is the fifth in a series of reports the Inspector General of the
Department of Defense is issuing that discusses accountability and control of materiel at
DoD maintenance depots. The Joint Group on Depot Maintenance estimated the DoD
depot maintenance expenditures to be about $15.3 billion for FY 2002. The Navy
portion of that amount was about $6.8 billion. Close to $1.5 billion of the $6.8 billion
was for operation of three Naval Air Depots. According to the Naval Air Depot,
Jacksonville Comptroller’s Office, the FY 2002 budget for the operation of the depot was
about $700 million, and the value of the depot maintenance materiel inventory was about
$89 million.

Depot maintenance facilities need an effective inventory control system to ensure that an
adequate supply of materiel is on hand to maintain efficient levels of operation and to
meet the demands of customers. An effective system is also important to disclose
defective and obsolete goods; prevent loss through damage, pilferage, or waste; and
ensure the accuracy of inventory records. Through inventory control, materiel not
needed for current requirements at a depot can be identified and made available for
redistribution to meet other known requirements.

Results. Naval Air Depot, Jacksonville maintained materiel that exceeded requirements.
As a result, Naval Air Depot, Jacksonville had about $20 million of materiel in excess to
known requirements stored at the depot. Also, our stratified sample of 385 inventory
records at Naval Air Depot, Jacksonville produced an estimated count error rate of about
23.8 percent. Excess and inaccurate inventories will result in materiel that loses visibility
to item managers and may become lost, obsolete, or stolen. In addition, proper
management decisions over the use of materiel may have been hampered. Increased
management controls over maintenance materiel will improve the accuracy of the Naval
Air Depot, Jacksonville inventory, reduce excess materiel, and correct material
management control weaknesses identified in this report. (See the Finding section for the
detailed recommendations.)

Management Comments. A draft of this report was issued on November 27, 2002. The
Navy did not provide comments on the draft report. We request that the Commander,
Naval Air Systems Command and the Commander, Naval Air Depot, Jacksonville
comment on the final report by April 5, 2003.
Table of Contents

Executive Summary                                                   i

Background                                                         1

Objectives                                                         2

Finding
     Management of Materiel at the Naval Air Depot, Jacksonville   3

Appendixes
     A. Scope and Methodology                                       8
          Management Control Program Review                        10
          Prior Coverage                                           10
     B. Report Distribution                                        11
Background
    This report is the fifth in a series of reports resulting from our audit of
    accountability and control of materiel at DoD maintenance depots. The Joint
    Group on Depot Maintenance estimated the DoD depot maintenance expenditures
    to be about $15.3 billion for FY 2002. The Navy portion of that amount was
    about $6.8 billion. Close to $1.5 billion of the $6.8 billion was for operation of
    three Naval Air Depots. According to the Naval Air Depot, Jacksonville
    (NADEP-JAX) Comptroller’s Office, the FY 2002 budget for the operation of the
    depot was about $700 million, and the value of the depot maintenance materiel
    inventory was about $89 million.

    Naval Air Depot, Jacksonville. NADEP-JAX is one of the Navy’s three
    aviation maintenance depots. The value of the materiel inventory at NADEP-JAX
    was about $89 million, according to depot financial records as of June 30, 2002.
    The NADEP-JAX mission is to provide maintenance, engineering, logistics, and
    support services for airframes, engines, and other aviation components. Systems
    that NADEP-JAX supports include EA-6B, F-14, and P-3 aircraft; F-404, F414,
    J-52, and TF34 engines; and electro-optics, air refueling components, and
    launchers.

    Accounting For and Controlling Materiel. Inventory control is defined as the
    control of materiel by accounting and physical controls. Accounting control
    involves proper recording and reporting of inventories. Physical control is the
    incorporation of adequate safeguards for receiving, storing, handling, and issuing
    materiel. A physical inventory tests the accounting and physical controls by
    validating an item’s storage location, on-hand quantity, and condition by counting
    and physically inspecting the items.

    Inventory control is needed to ensure that an adequate supply of materiel is on
    hand to maintain efficient levels of operation and to meet the demands of
    customers. Effective inventory control is also essential in disclosing defective
    and obsolete goods; preventing loss through damage, pilferage, or waste; ensuring
    inventory accuracy; and identifying materiel not needed for current requirements
    so that materiel can be made available for redistribution to meet other known
    requirements.

    Management Oversight. The Naval Air Systems Command (NAVAIR) is the
    office of primary responsibility for the three Naval Air Depots within the Navy
    and provides overall guidance for managing materiel at the depots. Naval Air
    Systems Command Instruction 4400.5A, “Material Inventory Control Policy and
    Procedures for Naval Air Depots,” July 2, 2002 (NAVAIRINST 4400.5A),
    provides policy and procedural guidance for management and control of materiel
    at the Naval Air Depots.




                                        1
    Manufacturing Resource Planning II System. At NADEP-JAX, maintenance
    materiel is managed by the Manufacturing Resource Planning II System (MRP
    II). The MRP II was approved as the Department of Defense maintenance, repair,
    and overhaul information management system. The objectives of the MRP II
    Program are to provide DoD maintenance depots the tools to increase control over
    operations, optimize inventory levels, improve production and scheduling
    responsiveness, optimize inventory and work-in-process levels, and improve
    capacity analysis and workload scheduling.


Objectives
    Our overall audit objective was to evaluate the effectiveness of policies and
    procedures used to account for and control materiel at NADEP-JAX. We also
    reviewed the management control program as it related to the overall objective.
    See Appendix A for a discussion of the scope and methodology, our review of the
    management control program, and prior coverage.




                                       2
           Management of Materiel at the Naval Air
           Depot, Jacksonville
           NADEP-JAX maintained materiel that exceeded requirements because
           NADEP-JAX did not have clear guidance regarding the management of
           materiel, did not perform quarterly reviews to identify materiel for which
           there may no longer be a valid requirement, did not have adequate
           guidance to account for and control point of use (POU) inventory, and did
           not have adequate management controls in place to account for and
           control maintenance materiel. Also, the lack of NAVAIR oversight
           contributed to the problem of accumulating excess materiel. As a result,
           NADEP-JAX had about $20 million of materiel in excess to known
           requirements stored at the depot. Also, our stratified random sample of
           385 inventory records at NADAP-JAX produced an estimated count error
           rate of about 23.8 percent. Excess and inaccurate inventories will result in
           materiel that loses visibility to item managers and may become lost,
           obsolete, or stolen. In addition, proper management decisions over the use
           of materiel may have been hampered.


Guidance on Managing Maintenance Materiel
    DoD Regulation 4140.1-R, “DoD Materiel Management Regulation,” May 1998,
    provides policies for DoD Components regarding management of materiel. The
    regulation states that the DoD Component that has physical custody of materiel is
    responsible for the care and safeguarding of the materiel and shall maintain
    quantitative balance records. The DoD Components shall also conduct annual
    physical inventories and shall take appropriate actions to ensure that the on-hand
    quantity and total item property records agree.

    NAVAIRINST 4400.5A provides policy and procedural guidance for
    management and control of materiel and supply inventories at Naval Air Depots.
    The instruction states that Naval Air Depots will conduct physical inventories and
    research all discrepancies. In addition, the instruction provides guidance for
    processing excess materiel. NAVAIRINST 4400.5A replaced
    NAVAIRINST 4400.5, “Materiel Inventory Control Policy and Procedures for
    Naval Aviation Depots,” March 31, 1993. However, the guidance regarding
    physical inventories and the processing of excess materiel was the same in both
    instructions.


Storage of Depot Maintenance Materiel
    NADEP-JAX maintained materiel that exceeded requirements. As of June 30,
    2002, financial records at NADEP-JAX showed that about $89 million of materiel
    inventory was stored in maintenance storerooms. Of the about $89 million of
    materiel stored in maintenance storerooms at NADEP-JAX, about $20 million of
    the materiel was excess materiel. Some of the materiel had been inactive for


                                        3
    several years. For example, NADEP-JAX had on hand 132 semiconductor
    devices (National Stock Number 5961-01-035-2641). With a unit cost of
    $149.03, the value of the excess inventory for that item was $19,672. The item
    manager for semiconductor devices stated he had not purchased the devices since
    1989 and had not issued a device to a depot since 1994. Materiel that has been
    inactive for extended periods and identified as excess materiel should be either
    transferred to ongoing programs if needed or turned in to installation supply for
    disposal.

    Accumulation of excess materiel has been an ongoing problem within the Naval
    Air Depots and was reported by the General Accounting Office in 1992. General
    Accounting Office Report No. NSIAD-92-216, “Navy Supply: Excess Inventory
    Held at the Naval Aviation Depots,” July 22, 1992, states that depots retained
    large inventories of excess materiel for many years. The report states that in
    FY 1991 the excess materiel balance totaled $40 million, or 28 percent of the total
    inventory.


Excess Materiel
    Excess materiel accumulated at NADEP-JAX because the depot did not have
    clear guidance regarding the management of materiel, did not perform quarterly
    reviews to identify materiel for which there may no longer be a valid requirement,
    did not have adequate guidance to account for and control POU inventory, and
    did not have adequate management controls in place to account for and control
    maintenance materiel.

    Guidance. NADEP-JAX had conflicting guidance regarding the management of
    materiel and did not perform quarterly reviews to identify materiel for which
    there may no longer be a valid requirement. NAVAIRINST 4400.5A provides
    guidance about identifying and retaining excess materiel. The instruction states
    that quarterly reviews of maintenance materiel needed for routine, current
    operations should be conducted to determine whether the materiel is required and
    that materiel found to be inactive in excess of 270 days should be returned to the
    supply system. In addition, the instruction provides that materiel with long
    lead-time procurement or low demand levels can be stored for periods up to
    12 months. However, that inventory must be limited and must also be reviewed
    quarterly to ensure there is a genuine foreseeable future requirement.
    NADEP-JAX personnel stated that NAVAIR had approved the use of a 450-day
    (five quarters) criterion for all maintenance materiel. NADEP-JAX provided us
    an inventory listing of about $20 million in excess materiel based on the 450-day
    criterion. When we contacted NAVAIR personnel regarding the 450-day
    criterion, they stated that it had been agreed to but formal written policy had not
    been developed. In addition, NAVAIR could not provide its rationale for
    extending the allowable time for materiel to remain in an inactive status. We
    believe NADEP-JAX should adhere to the 270-day and 12-month guidance to
    identify excess materiel to ensure timely disposition of unneeded materiel.




                                         4
Quarterly Reviews. NADEP-JAX personnel were not performing quarterly
reviews of materiel stored in maintenance storerooms as required by
NAVAIRINST 4400.5A. The instruction requires depot maintenance personnel
to perform quarterly reviews of materiel stored at the depots to identify excess
materiel and materiel that has been inactive for more than 270 days (routine use)
or 12 months (long lead-time or low demand). Materiel no longer needed should
be returned to the wholesale supply system. Failure to perform quarterly reviews
resulted in the accumulation of excess on-hand materiel. In addition, maintenance
personnel were reluctant to turn in excess materiel because of costs associated
with turn-ins when credit is not given. Further, personnel wanted to avoid the
negative impact of writing off the value of excess inventory on financial
statements.

Point of Use Inventory. To make frequently used items readily available to
maintenance personnel, NADEP-JAX maintains a storage area within the
maintenance production area where POU inventory is used. POU inventory
should be limited to low-cost, high-usage consumable materiel and parts.
However, the POU inventory included many high-dollar items. For example,
POU inventory records showed that NADEP-JAX had 20 tension bars (National
Stock Number 6615-00-181-2374) on hand. With a unit cost of $731.96, the total
value of the tension bar inventory was $14,639.20. Our physical inventory
showed that 2 of the 20 tension bars were not on hand. Maintenance personnel
within the production shops have free access to POU inventory to ensure an
uninterrupted workflow, but are responsible for updating the MRP II system as
the materiel is consumed. Our physical inventory of 51 POU items from our
sample of 385 storage records revealed count errors in 27 (53 percent∗) of the
POU records reviewed. POU inventory should be closely monitored to reduce the
error rate.

The high error rate can be attributed to a lack of Navy guidance and internal
controls governing the use of POU inventory. Because maintenance personnel
have free access to POU inventory, which includes many high-dollar items, Navy
policy and local guidance needs to be developed to ensure proper control of POU
inventory. Although MRP II has process guides for managing POU inventory,
the process guides do not provide adequate procedures to ensure POU inventory
is adequately accounted for and controlled. For example, the MRP II process
guide states that when maintenance technicians require materiel from a location,
they remove the part required and perform a transaction in the POU issue program
that updates the inventory balance in MRP II. That process does not provide for
separation of duties and, therefore, is vulnerable to mismanagement.

NADEP-JAX Management Control Program. NADEP-JAX had a defined
management control program in place and had policies and procedures to ensure
that the plan was executed. However, the plan could be improved in the area of
inventory control by adding steps to the annual review of inventory management
that would require verification of inventory accuracy by comparing MRP II


∗
    The 53 percent is based on the unweighted sample results and cannot be generalized to the
    universe.



                                             5
    records with physical counts. In addition, steps should be added to require a
    review of inactive inventory to determine whether there is still a requirement for
    that inventory and, if no requirement exists, identify and make that inventory
    available for redistribution or dispose of the materiel.


Management Oversight of Materiel
    The lack of NAVAIR management oversight of maintenance materiel contributed
    to the problem of excess materiel accumulating at NADEP-JAX. Also, our
    stratified random sample of 385 inventory records at NADAP-JAX had a count
    error rate of about 23.8 percent.

    DoD and Navy regulations require that maintenance depots maintain quantitative
    balance records, account for materiel on formal records from the time of
    acquisition until the ultimate consumption or disposal of the property, conduct
    annual physical inventories, and take appropriate actions to ensure that the
    on-hand quantity and total item property records agree. Those requirements were
    issued to ensure the care and safeguarding of materiel. NAVAIRINST 4400.5A
    states that the NAVAIR Deputy for Industrial Production Support is responsible
    for ensuring that inventory trend analysis for each depot is performed, actions are
    taken by the depots to reverse negative trends, and depots comply with NAVAIR
    materiel policies. In addition, the instruction requires depot comptrollers to
    provide quarterly inventory statistics to NAVAIR. NADEP-JAX personnel could
    not provide documentation to show that the required quarterly reviews had been
    prepared. NAVAIR should require quarterly reports so that inventory levels can
    be monitored to ensure adequate accountability and control of materiel and that
    excess materiel does not accumulate.

    The inventory records for accountability and control of materiel in storerooms at
    NADEP-JAX were inaccurate. For our physical inventory, we statistically
    selected 385 storage records from a universe of 71,287 storage records to
    determine whether quantities that were on hand matched quantities identified in
    the MRP II records. We compared the balances in the MRP II records with the
    physical counts of items in storerooms.

    The comparison of the MRP II records and our physical counts showed count
    errors in a number of the sample MRP II records. By applying statistical
    weighting to the sample, we estimated that about 16,935 (23.8 percent) of the
    71,287 records in the universe would have count errors. Because of the high
    count error rate, a physical inventory of materiel should be performed and
    inventory records adjusted accordingly.

    Excess and inaccurate inventories will result in materiel that loses visibility to
    item managers and may become lost, obsolete, or stolen. In addition, proper
    management decisions over the use of materiel may have been hampered.




                                          6
Potential Monetary Benefits
     The audit identified excess materiel valued at about $20 million. Therefore,
     NADEP-JAX could have $20 million of potential monetary benefits. The exact
     amount cannot be determined until NADEP-JAX identifies inventory excess to
     prevailing requirements and determines whether the excess materiel can be used
     to satisfy other known requirements.


Recommendations
     1. We recommend that the Commander, Naval Air Systems Command:
            a. Enforce the requirements of NAVAIRINST 4400.5A to identify excess
     materiel that has been inactive for more than 270 days for routine use materiel
     and 12 months for long lead-time or low demand materiel.

            b. Require quarterly reporting of excess of materiel at Naval Air Depots
     to ensure excess materiel does not accumulate.

            c. Develop policy for point of use inventory.

     2. We recommend that the Commander, Naval Air Depot, Jacksonville:

            a. Perform physical inventories of materiel stored in all storage locations
     and adjust inventory records accordingly.

            b. Perform the required quarterly reviews of materiel stored in
     maintenance storerooms to determine whether valid requirements exist for the
     materiel.

             c. Identify all excess materiel stored in maintenance storerooms and
     return the materiel to the supply system.


Management Comments Required
     The Navy did not comment on a draft of this report. We request that the
     Commander, Naval Air Systems Command and the Commander, Naval Air
     Depot, Jacksonville provide comments on the final report.




                                          7
Appendix A. Scope and Methodology
   We performed the audit at NADEP-JAX. We contacted personnel at NAVAIR
   and Government and contractor personnel involved in the aviation maintenance
   operation at NADEP-JAX. We reviewed DoD and Navy regulations regarding
   policies, responsibilities, and procedures for managing maintenance materiel at
   Naval Air Depots. We concentrated on accountability and control of repair parts
   and consumable materiel. Our audit focused primarily on information from
   inventory records dated August 15, 2002. As of June 30, 2002, NADEP-JAX
   reported a total inventory value of about $89 million.

   To determine whether repair parts and consumable materiel were accurately
   accounted for and controlled, we inventoried a stratified sample of materiel on
   hand at NADEP-JAX. We used inventory records from MRP II dated
   August 15, 2002, to identify the universe of 71,287 NADEP-JAX storage records,
   from which we statistically selected a sample of 385 storage records to physically
   inventory. We performed the actual physical inventory between August 19 and
   August 21, 2002. For any storage record that had a discrepancy between our
   physical count and the MRP II record, we attempted to reconcile the discrepancy
   by reviewing all inventory transactions for the location that occurred between
   August 15, 2002, and the date of our count. The audit was performed from
   August through November 2002 in accordance with generally accepted
   government standards.

   Use of Computer-Processed Data. We relied on computer-produced data from
   MRP II. Our review of system controls and results of data tests showed an error
   count rate that cast doubt on the data’s validity. In addition, we believe that the
   monetary value of the inventory in MRP II is inaccurate. Information obtained
   from the NADEP-JAX comptroller’s office showed an inventory value of about
   $89 million in June 2002. However, information obtained from MRP II showed a
   total inventory value of $353 million. During our physical inventory, we
   identified one item that was overpriced in the MRP II by $248 million. That item
   accounted for a substantial portion of the $264 million difference between the
   inventory value reported by the comptroller’s office and the MRP II. We were
   told by the comptroller’s office that the financial data in MRP II is not used for
   any business purposes, and, since our objective dealt primarily with verification
   of inventory quantities, the inaccurate financial data contained in the MRP II
   would have no adverse effect on our audit conclusions.




                                        8
Sample Design. We used a stratified random sample design based on the
materiel value per storage record and randomly selected storage records as of
August 15, 2002, as shown in the following table.


                        Population and Sampling

                                      Number of Storage Records

              Stratum             Stratum Population Stratum Sample

      Deadstock                            7,210               50
      $0 -$100.00                         31,580               50
     >$100 - $1,000                       20,626               50
     >$1,000 - $10,000                    10,331              100
     >$10,000 - $1,000,000                 1,535              130
     >$1,000,000                               5                5

               Total                      71,287              385


Sample Results. Using the stratified sample design, we calculated statistical
projections of the errors of materiel count in storage locations and the projected
overstated and understated values of the inventories.

Based on the sample results, and by using a 90 percent confidence level, we
project that between 12,318 and 21,552 records have materiel count errors at
NADEP-JAX. The point estimate of 16,935 (23.8 percent) is the mid point of the
range of values. We further project that the understated value of the materiel in
error is between $2.16 million and $8.2 million. The point estimate of
$5.18 million is the mid point of the range of values. Also, the overstated value
of the materiel in error is between $7.25 million and $14.6 million. The point
estimate of $10.92 million is the mid point of the range of values.

Use of Technical Assistance. Research analysts from the Quantitative Methods
Division of the Office of the Inspector General of the Department of Defense
provided assistance in designing the statistical sampling plan for selecting
inventory records for review and projecting the results.

High-Risk Area. The General Accounting Office has identified several high-risk
areas in DoD. This report provides coverage of the Defense Inventory
Management high-risk area.




                                     9
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls at NADEP-JAX regarding storage and
    disposition of maintenance materiel at the depot. We also reviewed the adequacy
    of management’s self-evaluation of those management controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for NADEP-JAX as defined by DoD Instruction 5010.40.
    NADEP-JAX did not have adequate procedures in place to ensure the accuracy of
    inventory records and did not have controls to ensure that excess materiel was
    identified and appropriate actions taken. The recommendations in this report, if
    implemented, will improve controls over maintenance materiel at NADEP-JAX.
    A copy of the report will be provided to the senior official responsible for
    management controls at NAVAIR.

    Adequacy of Management’s Self Evaluation. NADEP-JAX identified
    inventory control as an assessable unit but did not identify or report the
    weaknesses identified by this audit.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued four final reports that discuss management of repair parts for
    maintenance. Unrestricted IG DoD reports can be accessed over the Internet at
    http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2003-033, “Accountability and Control of Materiel at the
    Naval Air Depot, North Island,” December 6, 2002

    IG DoD Report No. D-2002-091, “Accountability and Control of Materiel at the
    Corpus Christi Army Depot,” May 21, 2002

    IG DoD Report No. D-2002-003, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot,” October 4, 2001

    IG DoD Report No. D-2001-186, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot – Stockage of Communications-Electronics Materiel,”
    September 21, 2001


                                        10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs, and
        Resources)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Naval Air Systems Command
  Commander, Naval Air Depot, Jacksonville
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          12
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Dennis E. Payne
Joseph M. Austin
Marc E. Avers
Bernard M. Baranosky
David Barton
Celia J. Harrigan
Thomas J. McKenna
Steven G. Schaefer
Travis R. Schneck
Elizabeth N. Shifflett
